        DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                               Office of Inspector General



                                                                                              Washington, D.C. 20201



                                              OCT 222010 




TO: 	             Donald M. Berwick, M.D.
                  Administrator
                  Centers for Medicare & Medicaid Services


FROM:             Stuart Wright
                                   /S/
                  Deputy Inspector General
                     for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Payment for Drugs Under the Hospital Outpatient
           Prospective Payment System, OEI-03-09-00420


This memorandum report presents the results of our review comparing Medicare payment
amounts for 32 selected separately payable drugs covered under the hospital Outpatient
Prospective Payment System (OPPS) to hospital acquisition costs. Certain stakeholders! have
expressed concerns about the OPPS payments for separately payable drugs, including that
(1) Medicare payment amounts may substantially exceed acquisition costs for 340B hospitals,
and (2) Medicare payment amounts may be lower than acquisition costs for non-340B
hospitals.

We found that, in the aggregate, Medicare payments were 31 percent higher than acquisition
costs among responding 340B hospitals and 1 percent higher than acquisition costs among
responding non-340B hospitals for the selected separately payable drugs. For the individual
drugs, the Medicare payment amounts for more than half exceeded non-340B hospital
acquisition costs. The Medicare payment amounts for the remaining drugs purchased by
non-340B hospitals were below average acquisition costs, albeit by a small amount (between
0.6 percent and 11 percent).

BACKGROUND

Medicare Part B Coverage of Prescription Drugs
Although Medicare Part D covers most outpatient prescription drugs, the Centers for
Medicare and Medicaid Services (eMS) continues to cover a limited number of outpatient
prescription drugs under its Part B benefit. Part B-covered drugs generally fall into the

I Examples of stakeholders expressing concern are: the American Hospital Association, the Alliance of
Dedicated Cancer Centers, the New Jersey Hospital Association, and the Plasma Protein Therapeutics
Association.

OEI-03-09-00420        Payment for Drugs Under the OPPS
Page 2 – Donald M. Berwick, M.D.


following categories: drugs furnished incident to a physician’s service (e.g., injectable drugs
used in connection with the treatment of cancer); drugs explicitly covered by statute
(e.g., some vaccines and oral anticancer drugs); and drugs used in conjunction with durable
medical equipment (e.g., inhalation drugs). 2 Medicare beneficiaries can receive
Part B-covered drugs in several settings, including physician offices and hospital outpatient
departments.

OPPS
Prior to 2000, Medicare largely based payments for hospital outpatient services on reasonable
costs. Congress replaced the reasonable cost-based payment method with a prospective
payment system in which Medicare pays a predetermined, fixed amount. 3, 4 In 2000, CMS
implemented OPPS to pay hospitals for Part B outpatient services including, but not limited
to, certain Part B-covered drugs.

OPPS Payment for Drugs
The OPPS payment for drugs is generally divided into two categories: separately payable
drugs and packaged drugs.

Separately payable drugs. CMS makes a discrete payment for Part B-covered drugs when
estimated per-drug, per-day costs are greater than $60 (for 2009). 5 CMS also makes separate
payments for drugs with pass-through status, regardless of whether they exceed the packaging
threshold of $60 per day per drug. 6, 7 Prior to 2010, CMS made separate payments for
several antiemetic drugs (antinausea drugs typically administered to cancer patients)
regardless of cost. 8

For the purposes of this review, separately payable drugs generally refer to any drugs that
Medicare made a separate payment for under the OPPS in 2009; i.e., drugs that have per-day
costs above the $60 threshold, pass-through drugs, and certain antiemetics. Medicare and its
beneficiaries paid approximately $3 billion for separately payable drugs provided in hospital
outpatient departments in 2007. 9

Packaged drugs. With certain exceptions, packaged drugs are inexpensive Part B-covered
drugs that do not exceed the OPPS packaging threshold ($60 per day per drug in 2009) and

2
  68 Fed. Reg. 50428, 50429 (Aug. 20, 2003).
3
  Section 1833(t) of the Social Security Act (the Act), 42 U.S.C. § 1395l(t); 42 CFR Part 419.
4
  Section 1833(t) of the Act, as added by the Balanced Budget Act of 1997, authorized OPPS. The CMS final
rule implementing OPPS is at 65 Fed. Reg. 18434 (Apr. 7, 2000).
5
  See 73 Fed. Reg. 68502, 68642 (Nov. 18, 2008) for CMS’s methodology for setting the packaging threshold.
6
  Section 1833(t)(6) of the Act provides for temporary additional payments or “transitional pass-through
payments” for certain new drugs.
7
  Section 1833(t)(6)(A) of the Act and 73 Fed. Reg. 68502, 68632 (Nov. 18, 2008).
8
  CMS removed this exemption from the packaging threshold in its rulemaking for 2010. 74 Fed. Reg. 60316,
60487 (Nov. 20, 2009).
9
  Medicare Payment Advisory Commission. A Data Book: Healthcare Spending and the Medicare Program.
June 2009.

OEI-03-09-00420        Payment for Drugs Under the OPPS
Page 3 – Donald M. Berwick, M.D.


are not antiemetic or pass-through drugs. CMS does not make separate payment for packaged
drugs; it includes (i.e., packages) payment for these drugs as part of the payment for the
treatment during which the drug is administered.

OPPS Payment Methodology
Since 2006, CMS has based the OPPS payment rate for separately payable drugs on average
sales price (ASP). 10 The ASP is a manufacturer’s sales of a drug to all purchasers in the
United States in a calendar quarter divided by the total number of units of the drug sold by the
manufacturer in that quarter. The ASP is net of any price concessions, such as volume
discounts, prompt pay discounts, cash discounts, free goods contingent on purchase
requirements, chargebacks, and rebates other than those obtained through the Medicaid drug
rebate program. 11 Sales that are nominal in amount are exempted from the ASP calculation,
as are sales excluded from the determination of “best price” in the Medicaid drug rebate
program. 12

For drugs administered in a physician’s office, the Medicare payment amount is set by the Act
at 106 percent of the ASP. 13 Although the OPPS also bases payment for separately payable
drugs on ASP, the Act does not define a set payment methodology. Rather, CMS annually
updates the payment methodology (i.e., the percentage added to or subtracted from the ASP)
for separately payable drugs that are not pass-through drugs through the rulemaking process.
After examining Medicare claims data to gauge hospital acquisition costs for the drugs and
overhead costs, CMS set the 2009 Medicare payment amount for non-pass-through separately
payable drugs at 104 percent of the ASP (see Table 1). 14 The payment amount for
pass-through drugs paid under the OPPS is equal to the payment amount for drugs in the
physician office setting (i.e., 106 percent of the ASP), according to CMS. 15 The Medicare
payment amount for the OPPS is meant to cover both acquisition costs for the drugs and
related overhead costs. 16

In previous rulemakings, CMS proposed various approaches for gathering information on
how overhead costs are allocated and accounted for among particular drugs in hospital



10
   70 Fed. Reg. 68516, 68640 (Nov. 10, 2005); section 1833(t)(14)(A)(iii)(II) of the Act.
11
   Section 1847A(c) of the Act.
12
   See section 1847A(c)(2) of the Act. Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest
price available from the manufacturer during the rebate period to any wholesaler, retailer, provider, health
maintenance organization, nonprofit entity, or governmental entity within the United States, with certain
exceptions.
13
   Section 1847A(b)(1) of the Act.
14
   The method used to calculate Medicare payment amounts for separately payable drugs under OPPS did not
change for 2010. See 73 Fed. Reg. 68502, 68651–68659 (Nov. 18, 2008) for an explanation of how CMS
determined payment rates for 2009.
15
   The payment methodology is updated annually. However, Medicare payment amounts under OPPS are
updated quarterly based on changes to the manufacturer-reported ASPs.
16
   73 Fed. Reg. 68502, 68656 (Nov. 18, 2008).

OEI-03-09-00420         Payment for Drugs Under the OPPS
Page 4 – Donald M. Berwick, M.D.


outpatient pharmacies. 17 Hospitals claimed that all of these approaches would be
administratively burdensome, and CMS did not implement any of them. Additionally, CMS
does not specifically define what constitutes overhead costs.

        Table 1: Medicare Payment Amounts for Drugs Under OPPS in 2009

           Drug Type                                                        OPPS Payment Amount for 2009


          Separately payable drugs (drugs that
          exceed the $60 threshold and some                                                104 percent of ASP
          antiemetics in 2009)

          Separately payable drugs (pass-through
                                                                                           106 percent of ASP
          drugs)
          Packaged drugs                                    Not applicable; payment included in related service
        Source: Office of Inspector General (OIG) analysis of Medicare payment under OPPS and
        73 Fed. Reg. 68502 (Nov. 18, 2008).


340B Program
The Medicare payment amounts for drugs under the OPPS are the same for all types of
hospital outpatient departments. However, hospital acquisition costs vary widely and certain
hospitals are able to purchase drugs at reduced prices.

The 340B Drug Pricing Program (340B Program), overseen by the Health Resources and
Services Administration (HRSA), was created to assist entities that provide services to
disproportionately low-income, uninsured, and underinsured populations and allow them to
purchase drugs at reduced prices. Under the 340B Program, pharmaceutical manufacturers
agree to charge at or below statutorily defined prices, known as the 340B ceiling prices, for
certain sales to certain covered entities. 18 Therefore, eligible entities that participate in the
340B Program should have lower acquisition costs for many drugs. Eligible 340B entities
include disproportionate share hospitals, Ryan White grantees, State-operated AIDS drug
assistance programs, and black lung clinics, among others. As of March 2010, approximately
14,500 entities were enrolled in the 340B Program. 19, 20




17
   See 74 Fed. Reg. 60316, 60499–60501 (Nov. 20, 2009) for a discussion of CMS’s proposals for accurately
paying overhead costs.
18
   The Veterans Health Care Act of 1992, P.L. No. 102-585, § 602, which is codified as section 340B of the
Public Health Service (PHS) Act, established the 340B Program. See 42 U.S.C. § 256b.
19
   HRSA, Covered Entity Database. Accessed at http://www.hrsa.gov on April 29, 2010.
20
   Because the 340B Program requires each location to be registered individually in HRSA’s Covered Entity
database, and a 340B entity may have several satellite sites, the database includes multiple entity listings
associated with the same organization.

OEI-03-09-00420          Payment for Drugs Under the OPPS
Page 5 – Donald M. Berwick, M.D.


Drugs purchased under the 340B Program by disproportionate share hospitals (hereinafter
referred to as 340B hospitals) are paid for under the OPPS when administered to Medicare
beneficiaries in an outpatient setting. 21 A 340B hospital is defined as:

    being owned or operated by a unit of State or local government, a public or private
     nonprofit corporation which is formally granted governmental powers by a unit of State or
     local government, or a private nonprofit hospital which has a contract with a State or local
     government to provide services to low-income individuals;

    having a disproportionate share adjustment percentage 22 greater than 11.75 percent or
     being described in section 1886(d)(5)(F)(i)(II) of the Act; and

    not obtaining covered outpatient drugs through a group purchasing arrangement. 23

Sales to covered entities through the 340B Program are not included in the calculation of the
ASP. 24 If 340B sales were included, the ASPs would be lower because of 340B entities’
eligibility for substantially lower drug prices. Medicare claims data from 340B hospitals are
included when CMS determines the Medicare payment amount for separately payable
non-pass-through drugs under the OPPS each year.

METHODOLOGY

Scope
We compared first-quarter 2009 Medicare payment amounts to first-quarter 2009 hospital
acquisition costs for 33 separately payable drugs from 2 separate random samples of hospitals
in the United States that participate in Medicare: 1 sample of 99 340B hospitals and another
sample of 110 non-340B hospitals. This study includes only separately payable drugs; i.e.,
we excluded packaged drugs from our analysis because CMS does not calculate a separate
Medicare payment amount. See Appendix A for a list of the drugs under review.

Data Sources and Collection
Drugs and Medicare payment amounts. Separately payable drugs are identified and billed
using Healthcare Common Procedure Coding System (HCPCS) codes. Each HCPCS code
defines the drug name and the dosage amount represented by the HCPCS code but does not
specify manufacturer or package size information. We obtained a list of the top 30 separately


21
   Section 7101 of the Affordable Care Act extended participation in the 340B program to certain children’s
hospitals, cancer hospitals, critical access and sole community hospitals, and rural referral centers. However,
these changes took effect after the time period covered by this review.
22
   See section 1886(d)(5)(F) of the Act for the definition and calculation of the disproportionate share adjustment
percentage.
23
   HRSA, Introduction to 340B Drug Pricing Program. Accessed at http://www.hrsa.gov on March 16, 2010.
42 U.S.C. § 256b(a)(4)(L).
24
   Sections 1847A(c)(2)(A) and 1927(c)(1)(C)(i)(I) of the Act.

OEI-03-09-00420         Payment for Drugs Under the OPPS
Page 6 – Donald M. Berwick, M.D.


payable HCPCS codes by Medicare expenditures in 2008 from CMS. We included
3 additional HCPCS codes at CMS’s request for a total of 33 drugs. 25 We obtained
first-quarter 2009 Medicare payment amounts under the OPPS for the selected drugs from
CMS’s Web site.

Hospital acquisition costs. We selected two random samples: one for 340B hospitals and one
for non-340B hospitals. We obtained a list of 340B hospitals from HRSA’s Covered Entity
database in July 2009. This database contains the name and contact information for all 340B
hospitals. From this list we selected a random sample of 100 340B hospitals. 26 We removed
1 of the selected hospitals because of an ongoing OIG investigation for a sample size of 99.
To select the sample of non-340B hospitals, we obtained the Online Survey, Certification, and
Reporting database. This database contains the names and contact information of hospitals
participating in Medicare nationwide. We first removed 340B hospitals (as identified in the
HRSA database) from this list and selected a random sample of 110 non-340B hospitals from
the remaining facilities. 27

In September 2009, we sent written surveys to the hospitals in our two samples. For each of
the 33 drugs under review, we asked the hospitals to provide their first-quarter 2009
acquisition costs, any discounts or rebates for these purchases, the number of units purchased,
and whether the purchases were made through the 340B Program. In addition, we asked
hospitals to indicate whether the drugs were for outpatient use. We sent up to two written
followup surveys to nonresponding hospitals in our samples between October and
November 2009. Additionally, we conducted multiple followup phone calls with
nonresponding hospitals to elicit a higher response rate. See Appendix B for a detailed
methodology.

Between October and December 2009, 94 340B and 110 non-340B hospitals responded to our
survey and 90 340B and 77 non-340B hospitals provided some acquisition cost data. Not all
hospitals in the sample purchased all of the drugs under review. Therefore, the number of
hospitals with acquisition cost data for each drug varied widely. For example, less than
10 hospitals in each sample reported any purchases for 6 of the drugs. See Appendix C for
the number of hospitals providing data per drug.

We also asked hospitals to provide data on their pharmacy overhead costs. Per CMS’s
recommendation, we did not include a specific definition of overhead costs in our survey.
Based on public comment, CMS believed that if OIG were to provide examples of overhead
costs in its survey, responding hospitals might interpret the examples as legal definitions of
overhead costs. Given that CMS itself has not explicitly defined these costs for individual

25
   Two of the thirty-three drugs had pass-through status in the first quarter of 2009. See Appendix A.
26
   As of July 2009, there were 2,541 340B hospitals listed in HRSA’s Covered Entity Database. We identified
and linked related entities into units we refer to as “purchasing agents” because we wanted our sampling units to
be entities that purchase drugs either for themselves or on behalf of affiliated entities. This sample was drawn
from a universe of 851 hospital purchasing agents.
27
   This sample was drawn from a universe of 5,305 hospitals.

OEI-03-09-00420         Payment for Drugs Under the OPPS
Page 7 – Donald M. Berwick, M.D.


drugs, we did not want to establish a definition that could be the source of future conflict
between the agency and hospitals. Therefore, hospitals had minimal guidance in providing
these data. Absent a consistent definition of overhead costs, we were not able to determine
how these self-reported figures relate to any additional costs that are meant to be reimbursed
under the payment amount for each individual drug.

Data Analysis
From the list of hospitals that provided acquisition cost data, we removed 1 340B hospital and
29 non-340B hospitals that did not participate in the OPPS. 28 Our subsequent analysis was
based on these data reported by the remaining 89 340B hospitals and 48 non-340B hospitals.
We excluded 1 drug (Q4101) from our analysis because of low reported utilization
(one 340B and one non-340B hospitals reported purchasing Q4101), resulting in a total of
32 separately payable drugs under review.

For both hospital types (i.e., 340B and non-340B), we aggregated the hospitals’ acquisition
costs data by the appropriate HCPCS code. We then calculated volume-weighted average
acquisition costs (hereinafter referred to as average acquisition costs) by totaling the
acquisition costs, net of any discounts and rebates, for each drug and dividing them by the
total units purchased among all facilities for each drug. We determined the percentage
difference between CMS’s first-quarter 2009 ASP-based Medicare payment amount for each
drug and the average acquisition costs for both hospital types. To determine the aggregate
difference between CMS’s first-quarter 2009 ASP-based Medicare payment amounts and total
acquisition costs among all 32 drugs for both 340B and non-340B hospitals, we:

    determined the total acquisition costs for the 32 drugs among each hospital type by
     summing the data reported by all respondents;

    multiplied the total units purchased for each drug, as reported by hospitals, by the drug’s
     Medicare payment amount to calculate the total amount that hospitals would have paid for
     all selected drugs if their acquisition costs equaled Medicare payment amounts; and

    calculated the percentage difference between the total amount that would have been paid
     had the acquisition cost equaled Medicare payment amounts and the total amount paid for
     the 32 drugs, as reported by 340B and non-340B hospitals.

Limitations
The analysis and results in this report are based only on self-reported data received from
responding hospitals in our sample. We were unable to make projections to the universe of
hospitals because of the limited number of hospitals that purchased certain drugs as well as
the large number of hospitals removed from our analysis.


28
 Examples of non-340B hospitals that are not paid under OPPS include critical access hospitals and hospitals in
Maryland. 42 CFR § 419.20(b).

OEI-03-09-00420        Payment for Drugs Under the OPPS
                        Page 8 – Donald M. Berwick, M.D.


                        Standards
                        This study was conducted in accordance with the Quality Standards for Inspections approved
                        by the Council of the Inspectors General on Integrity and Efficiency.

                        RESULTS

                        Medicare Payments to Responding 340B Hospitals for Separately Payable Drugs Were
                        31 Percent Higher Than Their Aggregate Acquisition Costs
                        In the first quarter of 2009, the aggregate Medicare payment amount was 31 percent higher
                        than drug acquisition costs for 340B hospitals providing data. Despite stakeholder concerns,
                        this is an expected result given the purpose of the 340B Program. In fact, for the 32 drugs
                        under review, the Medicare payment amount exceeded acquisition costs for 89 percent of the
                        drug purchases (by dollars) made by responding 340B hospitals. Medicare payment amounts
                        for 28 drugs were between 1 percent and 222 percent higher than average acquisition costs.
                        For the remaining four drugs, Medicare payment amounts were between 0.5 percent and
                        8 percent below acquisition costs. Chart 1 illustrates the range of differences between average
                        acquisition costs and Medicare payment amounts for 340B hospitals. See Table D-1 in
                        Appendix D for a comparison of Medicare payment amounts to average acquisition costs
                        among 340B hospitals for each of the 32 drugs.

                        Chart 1. Comparison of Medicare Payment Amounts to Average Acquisition Costs
                        for 340B Hospitals
                        240%
                        230%
                        220%
                        210%
                        200%
                        190%
                        180%
                        170%
                        160%
                        150%
                        140%                                  Medicare payment amounts for 28 of 32 drugs were greater
                                                                          than average acquisition costs
Percentage Difference




                        130%
                        120%
                        110%
                        100%
                         90%
                         80%
                         70%
                         60%
                         50%
                         40%
                         30%
                         20%
                         10%
                          0%
                        -10%
                        -20%
                        -30%
                        -40%                                                  Average Acquisition Cost
                        -50%
                             6

                             2

                             8

                             9

                             1

                             9

                             5

                             5

                             5

                             8

                             7

                             5

                             3

                             7

                             8

                             4

                             5

                             5

                             5

                             1

                             5

                             0

                             1

                             0

                             7

                             1

                             3

                             2

                             6

                             3

                             1

                             6
                           56

                           57

                           56

                           45

                           56

                           56

                           05

                           74

                           03

                           77

                           35

                           78

                           26

                           48

                           48

                           26

                           30

                           50

                           88

                           88

                           35

                           17

                           04

                           31

                           21

                           00

                           32

                           15

                           25

                           35

                           20

                           20
                         J1

                         J1

                         J1

                         J1

                         J1

                         J1

                         J9

                         J1

                         J9

                         J2

                         J2

                         J1

                         J9

                         J3

                         J3

                         J9

                         J9

                         J2

                         J0

                         J0

                         J9

                         J9

                         J9

                         J9

                         J9

                         J9

                         J2

                         J0

                         J0

                         J2

                         J9

                         J9




                        Source: OIG analysis of 340B hospital acquisition cost data and first-quarter 2009 Medicare payment amounts. 2010.




                        OEI-03-09-00420             Payment for Drugs Under the OPPS
Page 9 – Donald M. Berwick, M.D.


A substantial majority of the drugs under review 29 have Medicare payment amounts that are
higher than average acquisition costs because the 340B Program enables eligible entities
(e.g., 340B hospitals) to purchase drugs at reduced prices based on the fact that the
populations served by these entities are disproportionately low-income, uninsured, and
underinsured. Furthermore, the lower sales prices to 340B entities are not included when
manufacturers calculate ASPs (i.e., the basis of hospital payment for separately payable drugs
is not reduced by the inclusion of 340B prices).

Medicare Payments to Responding Non-340B Hospitals for Separately Payable Drugs
Were 1 Percent Higher Than Their Aggregate Acquisition Costs
In the first quarter of 2009, the aggregate Medicare payment amount was 1 percent higher
than drug acquisition costs for non-340B hospitals providing data. For the 32 drugs under
review, the Medicare payment amount exceeded acquisition costs for slightly more than half
of the drug purchases (by dollars) by responding non-340B hospitals (54 percent).

The Medicare payment amount for more than half of the selected drugs (18 of 32) exceeded
hospitals’ acquisition costs by between 0.3 percent and 130 percent. The Medicare payment
amounts for the remaining drugs (14 of 32) were below average acquisition costs, albeit by a
small amount (between 0.6 percent and 11 percent). For non-340B hospitals, the difference
between Medicare payment amounts and average acquisition costs was less than 5 percent for
22 of the 32 drugs under review. The lack of substantial differences is an expected result
given that these hospitals do not have access to the reduced prices of the 340B program.
Chart 2 illustrates the range of differences between average acquisition costs and Medicare
payment amounts for non-340B hospitals. See Table D-2 in Appendix D for a comparison of
Medicare payment amounts to average acquisition costs for non-340B hospitals for each of
the 32 drugs.




29
  The four drugs with Medicare payment amounts below average acquisition costs are intravenous immune
globulin products. According to hospital responses, a substantial majority of the purchases for these drugs were
not made through the 340B Program.

OEI-03-09-00420         Payment for Drugs Under the OPPS
Page 10 – Donald M. Berwick, M.D.


Chart 2. Comparison of Medicare Payment Amounts to Average Acquisition Costs
for Non-340B Hospitals

                        140%

                        130%

                        120%

                        110%

                        100%
                                       Medicare payment amounts for 22 of 32 drugs were within
                        90%
                                                5 percent of average acquisition costs
                        80%
Percentage Difference




                        70%

                        60%

                        50%

                        40%

                        30%

                        20%

                        10%

                         0%

                        -10%

                        -20%
                                                                                                     Average Acquisition Cost
                        -30%

                        -40%
                             5

                             9

                             5

                             0

                             6

                             5

                             8

                             2

                             7

                             3

                             9

                             2

                             1

                             1

                             6

                             3

                             5

                             1

                             4

                             1

                             5

                             7

                             8

                             5

                             0

                             3

                             5

                             8

                             5

                             7

                             1

                             6
                           50

                           56

                           78

                           17

                           56

                           74

                           56

                           57

                           35

                           32

                           45

                           15

                           56

                           04

                           25

                           26

                           30

                           20

                           26

                           00

                           05

                           48

                           77

                           35

                           31

                           35

                           03

                           48

                           88

                           21

                           88

                           20
                         J2

                         J1

                         J1

                         J9

                         J1

                         J1

                         J1

                         J1

                         J2

                         J2

                         J1

                         J0

                         J1

                         J9

                         J0

                         J9

                         J9

                         J9

                         J9

                         J9

                         J9

                         J3

                         J2

                         J9

                         J9

                         J2

                         J9

                         J3

                         J0

                         J9

                         J0

                         J9
Source: OIG analysis of non-340B hospital acquisition cost data and first-quarter 2009 Medicare payment amounts, 2010.




CONCLUSION

In this report, we compared Medicare payment amounts under the OPPS to hospital
acquisition costs. We found that, in the aggregate, Medicare payment amounts were
(1) substantially higher than acquisition costs for 340B hospitals and (2) similar to acquisition
costs for non-340B hospitals. This is an expected result given the purpose of the 340B
Program.

The Medicare payment amount for separately payable drugs under the OPPS is based on
manufacturer-reported ASPs. Because ASPs do not reflect 340B prices (which are generally
lower than other sales prices), a substantial majority of the drugs purchased by 340B hospitals
have Medicare payment amounts that are higher than average acquisition costs. Similarly,
because non-340B hospitals do not have access to reduced prices, the ASP-based Medicare
payment amounts are closer to their acquisition costs. Although for some individual drugs the
Medicare payment amount was slightly below average acquisition costs at non-340B
hospitals, the fact that overall payment levels exceeded costs leads us to conclude that
stakeholder concerns about underpayment were unfounded.

This report is being issued directly in final form because it contains no recommendations. If
you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-03-09-00420 in all correspondence.

OEI-03-09-00420                Payment for Drugs Under the OPPS
Page 11 – Donald M. Berwick, M.D.


APPENDIX A
       Table A-1. Drugs Under Review
                        1
        HCPCS Code                                               Short Description                 HCPCS Code Dosage
                                                                                                                       2
        J0152                                                    Adenosine injection                           30 mg
        J0256                                           Alpha 1 proteinase inhibitor                           10 mg
                                                                                     3                                 2
        J0881                                         Darbepoetin alfa, non-ESRD                               1 mcg
        J0885                                               Epoetin alfa, non-ESRD                          1000 units
                4, 5
        J1459                                                      Privigen injection                         500 mg
        J1561                                                     Gamunex injection                           500 mg
        J1566                                             Immune globulin, powder                             500 mg
                4
        J1568                                                     Octagam injection                           500 mg
        J1569                                           Gammagard liquid injection                            500 mg
        J1572                                                 Flebogamma injection                            500 mg
        J1745                                                     Infliximab injection                         10 mg
        J1785                                            Injection Imiglucerase /unit                           1 unit
        J2323                                                  Natalizumab injection                             1 mg
        J2353                                            Octreotide injection, depot                             1 mg
        J2357                                                 Omalizumab injection                               5 mg
        J2505                                                Injection, pegfilgrastim                            6 mg
        J2778                                                 Ranibizumab injection                            0.1 mg
        J3487                                                        Zoledronic acid                             1 mg
                5
        J3488                                                     Reclast injection                              1 mg
                                                          Doxorubicin HCl liposome
        J9001                                                              injection                           10 mg
        J9035                                                Bevacizumab injection                             10 mg
        J9041                                                   Bortezomib injection                           0.1 mg
        J9055                                                   Cetuximab injection                            10 mg
        J9170                                                              Docetaxel                           20 mg
        J9201                                                      Gemcitabine HCl                            200 mg
        J9206                                                    Irinotecan injection                          20 mg
        J9217                                       Leuprolide Acetate suspension                              7.5 mg
        J9263                                                              Oxaliplatin                         0.5 mg
        J9264                                               Paclitaxel protein bound                             1 mg
        J9305                                                  Pemetrexed injection                            10 mg
        J9310                                                    Rituximab injection                          100 mg
        J9355                                                           Trastuzumab                            10 mg
                 4, 6                                                                                                  2
        Q4101                                                       Apligraf skin sub                        1 sq cm
       Source: Centers for Medicare & Medicaid Services (CMS) first-quarter 2009 Addendum B pricing file.
       1
         Healthcare Common Procedure Coding System.
       2
         mg=milligram; mcg=microgram; cm=centimeter.
       3
         ESRD is end stage renal disease.
       4
         Denotes HCPCS codes included in the review at CMS’s request.
       5
         Denotes HCPCS codes for pass-through drugs.
       6
         This code was excluded from our analysis because of the low response rate.




OEI-03-09-00420             Payment for Drugs Under the OPPS
Page 12 – Donald M. Berwick, M.D.


APPENDIX B – Detailed Methodology

340B Sample Selection
We obtained a complete list of 340B hospitals from the Health Resources and Services
Administration’s (HRSA) Covered Entity database. Because the 340B Program requires each
location to be registered individually in HRSA’s Covered Entity database, and a 340B entity
may have several satellite sites, the database includes multiple entity listings associated with
the same organization. We identified and linked related entities into units we refer to as
“purchasing agents” because we wanted our sampling units to be entities that purchase drugs
either for themselves or on behalf of affiliated entities.

We used the HRSA-assigned unique 340B identification number to group affiliated entities by
purchasing agent. This identification number consists of three segments: first, a letter prefix
that indicates the entity type; second, numbers assigned at HRSA’s discretion; and third, if a
site is related to another site, a terminal letter suffix. An example of the unique identification
number would be DSH1234A. Using this number, we grouped entities together if their
HRSA identification numbers differed only by letter suffix and counted each grouping as one
purchasing agent. For example, to link DSH1234A to other entities, we would have grouped
it with DSH1234B and DSH1234C. Each group of entities was counted as one purchasing
agent. Entities with no listed affiliates were each counted as one purchasing agent. We
selected a random sample of 100 340B purchasing agents. 30, 31 For the purposes of this
report, we refer to the purchasing agent and related satellite sites as a single 340B hospital.
We removed 1 340B purchasing agent because of an ongoing OIG investigation for a sample
size of 99.

Data Collection and Analysis
Prior to calculating and aggregating average acquisition cost figures for each of the sampled
drugs, we examined the national drug codes (NDC), which are 11-digit drug identifiers,
reported by the hospitals for each Healthcare Common Procedure Coding System (HCPCS)
code to determine whether they were valid and associated with the correct code. We used the
Centers for Medicare & Medicaid Services’ HCPCS crosswalk file (a file that links NDCs to
their associated HCPCS codes) to make this determination. We excluded all NDCs (and the
associated cost data) that were not associated with a HCPCS code under review. In
calculating the average acquisition cost, we identified any outliers among the costs reported
by hospitals and removed them from our analysis. We defined an outlier as an average
acquisition cost reported by a facility that fell more than three standard deviations from the
mean.



30
   As of July 2009, there were 2,541 340B hospitals listed in HRSA’s Covered Entity Database. There are a total
of 851 purchasing agents.
31
   This sampling method for the selection of purchasing agents for 340B entities has been used previously by the
Office of Inspector General (OIG). See Review of 340B Prices, OEI-05-02-00073, July 2006.

OEI-03-09-00420        Payment for Drugs Under the OPPS
Page 13 – Donald M. Berwick, M.D.


APPENDIX C
                  Table C-1. Number of Hospitals Providing Data per Drug
                                    1
                    HCPCS Code                               340B Hospitals          Non-340B Hospitals

                    J0152                                                   37                      22
                    J0256                                                     7                      6
                    J0881                                                   44                      20
                    J0885                                                   69                      35
                    J1459                                                     8                      3
                    J1561                                                   14                       8
                    J1566                                                   18                      10
                    J1568                                                     6                      2
                    J1569                                                   25                       8
                    J1572                                                   12                       9
                    J1745                                                   64                      28
                    J1785                                                     8                      3
                    J2323                                                   25                       8
                    J2353                                                   33                      14
                    J2357                                                   26                       6
                    J2505                                                   60                      25
                    J2778                                                     3                      2
                    J3487                                                   54                      22
                    J3488                                                   44                      24
                    J9001                                                   36                      11
                    J9035                                                   54                      18
                    J9041                                                   39                      13
                    J9055                                                   48                      12
                    J9170                                                   59                      14
                    J9201                                                   56                      17
                    J9206                                                   50                      14
                    J9217                                                   41                      11
                    J9263                                                   55                      19
                    J9264                                                   28                       4
                    J9305                                                   42                      11
                    J9310                                                   62                      22
                    J9355                                                   51                      17
                            2
                    Q4101                                                     1                      1
                  Source: Office of Inspector General analysis of hospital responses.
                  1
                    Healthcare Common Procedure Coding System.
                  2
                    Denotes the HCPCS code excluded from the analysis.
                  Note: Outliers and other invalid data were excluded from these figures.




OEI-03-09-00420       Payment for Drugs Under the OPPS
Page 14 – Donald M. Berwick, M.D.


APPENDIX D

     Table D-1. Comparison of Medicare Payment Amounts to Average Acquisition
     Costs for 340B Hospitals
                                                                                                      Percentage Difference
                      *                        Medicare Payment          Average Acquisition             Between Medicare
      HCPCS Code
                                                         Amount          Cost Point Estimate          Payment Amount and
                                                                                                           Acquisition Cost
      J1566                                                  $28.87                       $31.21                         -7.50%
      J1572                                                  $34.92                       $36.34                         -3.92%
      J1568                                                  $36.18                       $36.52                         -0.93%
      J1459**                                                $34.16                       $34.33                         -0.49%
      J1561                                                  $34.86                       $34.42                          1.28%
      J1569                                                  $34.71                       $32.75                          5.97%
      J9055                                                  $48.80                       $41.04                        18.91%
      J1745                                                  $55.85                       $46.95                        18.95%
      J9035                                                  $56.30                       $47.10                        19.53%
      J2778                                                 $398.92                      $330.09                        20.85%
      J2357                                                  $17.88                       $14.62                        22.29%
      J1785                                                    $4.02                       $3.25                        23.57%
      J9263                                                    $9.39                       $7.59                        23.75%
      J3487                                                 $211.15                      $170.62                        23.75%
      J3488**                                               $218.51                      $175.01                        24.86%
      J9264                                                    $8.90                       $7.12                        24.98%
      J9305                                                  $47.31                       $36.97                        27.95%
      J2505                                               $2,135.09                   $1,633.68                         30.69%
      J0885                                                    $9.03                       $6.86                        31.54%
      J0881                                                    $3.00                       $2.23                        34.78%
      J9355                                                  $60.48                       $43.79                        38.12%
      J9170                                                 $330.59                      $230.16                        43.63%
      J9041                                                  $35.59                       $24.63                        44.52%
      J9310                                                 $525.21                      $362.08                        45.06%
      J9217                                                 $206.11                      $136.96                        50.49%
      J9001                                                 $432.93                      $274.37                        57.79%
      J2323                                                    $7.76                       $4.90                        58.32%
      J0152                                                  $69.09                       $41.93                        64.77%
      J0256                                                    $3.64                       $2.06                        76.41%
      J2353                                                 $103.83                       $56.72                        83.06%
      J9201                                                 $135.58                       $53.06                       155.52%
      J9206                                                  $21.31                        $6.62                       221.76%
     Source: Office of Inspector General (OIG) analysis of first-quarter 2009 Medicare payment amounts and 340B acquisition cost data.
     * Healthcare Common Procedure Coding System.
     ** Denotes HCPCS codes for pass-through drugs.




OEI-03-09-00420           Payment for Drugs Under the OPPS
Page 15 – Donald M. Berwick, M.D.


     Table D-2. Comparison of Medicare Payment Amounts to Average Acquisition
     Costs for Non-340B Hospitals
                                                                                                     Percentage Difference
                                              Medicare Payment          Average Acquisition             Between Medicare
      HCPCS Code
                                                        Amount          Cost Point Estimate          Payment Amount and
                                                                                                          Acquisition Cost
      J2505                                              $2,135.09                   $2,389.83                    -10.66%
      J1569                                                 $34.71                      $38.26                     -9.28%
      J1785                                                   $4.02                       $4.42                    -9.13%
      J9170                                                $330.59                     $355.19                     -6.92%
      J1566                                                 $28.87                      $30.34                     -4.86%
      J1745                                                 $55.85                      $58.68                     -4.82%
      J1568                                                 $36.18                      $37.42                     -3.32%
      J1572                                                 $34.92                      $36.04                     -3.10%
      J2357                                                 $17.88                      $18.34                     -2.52%
      J2323                                                   $7.76                       $7.88                    -1.55%
      J1459*                                                $34.16                      $34.67                     -1.48%
      J0152                                                 $69.09                      $70.00                     -1.31%
      J1561                                                 $34.86                      $35.20                     -0.96%
      J9041                                                 $35.59                      $35.79                     -0.55%
      J0256                                                   $3.64                       $3.63                     0.25%
      J9263                                                   $9.39                       $9.32                     0.77%
      J9305                                                 $47.31                      $46.78                      1.14%
      J9201                                                $135.58                     $133.67                      1.43%
      J9264                                                   $8.90                       $8.76                     1.56%
      J9001                                                $432.93                     $425.90                      1.65%
      J9055                                                 $48.80                      $47.96                      1.75%
      J3487                                                $211.15                     $207.43                      1.79%
      J2778                                                $398.92                     $390.00                      2.29%
      J9355                                                 $60.48                      $59.03                      2.45%
      J9310                                                $525.21                     $510.47                      2.89%
      J2353                                                $103.83                      $99.37                      4.49%
      J9035                                                 $56.30                      $53.39                      5.45%
      J3488*                                               $218.51                     $206.27                      5.93%
      J0885                                                   $9.03                       $7.69                    17.48%
      J9217                                                $206.11                     $160.27                     28.60%
      J0881                                                   $3.00                       $2.13                    41.17%
      J9206                                                 $21.31                        $9.27                   129.80%

     Source: OIG analysis of first-quarter 2009 Medicare payment amounts and non-340B acquisition cost data.
     * Denotes HCPCS codes for pass-through drugs.




OEI-03-09-00420           Payment for Drugs Under the OPPS
